OIG Audit Report GR-30-02-002
Office of Community Oriented Policing Services
Grant to the Loudoun County Sheriff's Office
Leesburg, Virginia
Audit Report GR-30-02-002
December 2001
Office of the Inspector General

Executive Summary
The Office of the Inspector General, Audit Division, has completed an audit of the grant awarded by the Office of Community Oriented Policing Services (COPS) to the Loudoun County, Virginia Sheriff's Office (grantee).  The purpose of the grant is to enhance community policing.  The grantee was awarded a total of $605,257 to redeploy the equivalent of 14.11 1 existing full-time police officers (FTEs) from administrative duties to community policing.

We reviewed the grantee's compliance with five essential grant conditions and found the grantee to be in general compliance with:  local match requirements, reimbursement requests, and community policing activities.  However, as identified below, we found weaknesses in the redeployment of sworn officer positions and retention at the required level.  Of the 14.1 FTEs, we found a shortfall of 6.14 as discussed below.  As a result, we question $107,288 in grant funds received and recommend an additional $46,162 be put to better use. 2

The grantee used federal funding of $42,700 to acquire its Booking and Fingerprinting System, which was fully implemented as of August 1999.  The grantee was not able to attain the required redeployment level associated with the amount of federal funding awarded, which resulted in a shortfall of 0.64 FTEs.  Therefore, we question costs of $15,950 associated with this shortfall.   Accordingly, the associated level of officer redeployment that is supposed to occur during the retention period will also not be achieved.   

	The grantee stated that it will not achieve the redeployment of 6.84 FTEs, but instead estimated that it will only redeploy 1.34 FTEs (a net difference of 5.5 FTEs) as a result of implementing an Automated Report Taking System.  As a result, we question costs of $91,338 and recommend $46,162 in federal funding be put to better use.  Accordingly, the associated  level of officer redeployment during the retention period will also fall short. 

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.





Footnotes

As stipulated in the grant award documents. 

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.